LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 21, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

RICHARD M. CAMACHO V. UNITED STATES

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari referenced above contains 8,741 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

